No. 19-67
IN THE SUPREME COURT OF THE UNITED STATES
_________________
UNITED STATES OF AMERICA, PETITIONER
v.
EVELYN SINENENG-SMITH
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the REPLY BRIEF FOR THE PETITIONER, via email and first-class mail, postage prepaid,
this 10TH day of September, 2019.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 2807 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on September 10, 2019.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
September 10, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0067
USA
EVELYN SINENENG-SMITH

DANIEL F. COOK
PO BOX 26
BODEGA BAY, CA 94923
415-730-3075
MARK C. FLEMING
WILMER CUTLER PICKERING HALE & DORR
LLP
60 STATE STREET
BOSTON, MA 02109
617-526-6909
MARKFLEMING@WILMERHALE.COM

